<html>
<title> - ACCOUNTABILITY AND TRANSPARENCY REFORM AT THE OFFICE OF INFORMATION AND REGULATORY AFFAIRS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








ACCOUNTABILITY AND TRANSPARENCY REFORM AT THE OFFICE OF INFORMATION AND 
                           REGULATORY AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-152

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-028 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

              Jennifer Hemingway, Majority Staff Director
                      Katy Rother, Senior Counsel
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2016...................................     1

                               WITNESSES

The Hon. Howard Shelanski, Administrator, Office of Information 
  and Regulatory Affairs, Office of Management and Budget
    Oral Statement...............................................     4
    Written Statement............................................     7
Ms. Michelle Sager, Director, Stategic Issues, Government 
  Accountability Office
    Oral Statement...............................................    11
    Written Statement............................................    13
Dr. Richard Williams, Vice President of Policy Research and 
  Director of Regulatory Studies Program, Mercatus Center, George 
  Mason University
    Oral Statement...............................................    29
    Written Statement............................................    31
Mr. Sam Batkins, Director of Regulatory Policy, American Action 
  Forum
    Oral Statement...............................................    40
    Written Statement............................................    42

 
ACCOUNTABILITY AND TRANSPARENCY REFORM AT THE OFFICE OF INFORMATION AND 
                           REGULATORY AFFAIRS

                              ----------                              


                        Tuesday, March 15, 2016

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:27 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Jordan, Walberg, Buck, 
Carter, Connolly, and Maloney.
    Also Present: Representative Chaffetz.
    Mr. Meadows. All right. The Subcommittee on Government 
Operations will come to order. And without objection, the chair 
is authorized to declare a recess at any time.
    Good afternoon. I want to welcome all of our witnesses and 
express my appreciation for your attendance and certainly for 
your testimony today.
    Today's hearing will explore concerns and complaints about 
transparency and accountability at the Office of Information 
and Regulatory Affairs. Just about a year ago, we had a similar 
hearing where the administrator obviously testified, and in 
reviewing some of the transcripts, I was reminded of some of 
the moments in that where the communication between you and 
members of this committee was, I guess, less than clear. And so 
we posed some questions that seemed very forthright to us, but 
it seemed maybe to be confused. And so obviously this follow-up 
hearing hopefully will provide some clarity as we look at that.
    For example, you know, can you send a list of either pre-
proposed rules or other rules that are undergoing the informal 
review process? And the administrator said, well, I don't know; 
what are you referring to? So, of course, I was referring to 
the same process that the GAO has referred to as an informal 
review at least as early as 2003, which is the time prior to 
the agency's formal submission of the rule to OIRA, during 
which OIRA frequently has had a significant influence over the 
development of the rule.
    So this year, we wanted to bring back in some of the 
experts in, including a regulatory expert from GAO, to help us 
maybe wade through some of this messy process and possibly help 
us bridge the communication gap that may have resulted from my 
inability to articulate exactly what we were looking for.
    GAO and regulatory experts have been calling for greater 
transparency and accountability from OIRA for more than a 
decade. In fact, in 2003 GAO issued a report that provided 
significant details on how OIRA's review process could be 
addressed but also raise several concerns about transparency 
and accountability.
    And since then, GAO has issued reports and recommendations 
on how agencies and OIRA identify significant regulations and 
how they explain the cost-benefit analysis and improve 
retrospective regulatory reviews. By my count, there are about 
17 open recommendations that OIRA has not yet addressed, and 
that would improve the Federal regulatory process.
    Instead, OIRA is marred by consistently late reporting, 
incomplete analysis, poor data quality, and insufficient 
oversight of the Federal regulatory process. OIRA is quite 
possibly an agency overwhelmed by this responsibility and 
insufficient resources, but the public doesn't know because 
OIRA has failed to provide any insight into that process. So 
hopefully, we will be able to hear some on that today.
    In that past year, the committee has experienced a 
frustration of this secretive regulatory process at OIRA 
firsthand. I want to emphasize that I use the word frustration 
and I could use something much more definitive in terms of 
making that analysis. During last year's hearing, several 
subcommittee members, myself included, requested that the 
administrator provide documentation on how OIRA conducted its 
reviews as it relates to the Waters of the USA rulemaking. This 
type of request is something that we would ask of any agency so 
that the committee can conduct its oversight responsibilities 
effectively.
    In general, agencies provide the committee with the 
information it needs to understand what happened and why. Some 
agencies take longer than others, but generally, we receive the 
information in a relatively reasonable period of time.
    Our experience with OIRA, however, has been different, and 
in the past year we have experienced an unprecedented effort in 
our opinion to obstruct the committee's oversight abilities and 
restrict access to information about the Federal regulatory 
process. OIRA's resistance to complying with the committee's 
simple requests raises more concerns than we had last year.
    Persistent requests for transparencies and assistance with 
oversight from the public and now from Congress are apparently 
met with disregard from OIRA. This committee may need to look 
into other means to ensure that the agency is an effective 
regulatory gatekeeper and accountable to the taxpayers, and 
while the committee's investigation into OIRA's review of the 
WOTUS rulemaking is ongoing, it is really not the focus of this 
hearing.
    The committee wanted to hold this hearing to explore policy 
concerns and maybe options, Administrator, to address those 
concerns. And so today, we ask our witnesses both where 
additional transparency and accountability at OIRA are needed, 
as well as what legislative efforts that the committee should 
consider to spread a little sunshine into the secretive 
deliberative process of the agency. Do you think that putting 
OIRA's regulatory review function into a statute would help 
OIRA better understand its obligations to Congress and the 
American people, or is OIRA overburdened with the numerous 
obligations that you have? Does OIRA need more staff to conduct 
a more thorough review of the regulatory actions and meet its 
current obligations for transparency?
    We just want to know how this committee can help crack OIRA 
open for public review and purview and Congress to better 
understand the important work that this agency does. So any 
thoughts or suggestions that the witnesses can offer us would 
be very helpful.
    Mr. Meadows. And with that, I would now like to recognize 
my good friend Mr. Connolly, the ranking member of the 
Subcommittee on Government Operations, for his opening 
statement.
    Mr. Connolly. Thank you, Mr. Chairman.
    And I am sorry for the delay. I was detained on the Floor 
after votes.
    And thanks for holding another hearing on what is arguably 
one of the most influential and consequential Federal agencies 
that most Americans have never heard of. This relatively small 
and mostly anonymous office reviews and coordinates the 
issuance of vital Federal regulations that have an impact on 
our nation's economy, environment, public health, and safety.
    A year ago, Mr. Chairman, this subcommittee gathered to 
discuss the challenges facing the Office of Information and 
Regulatory Affairs, OIRA. We reviewed the Government 
Accountability Office's recommendations and examined ways to 
make the regulatory review process more efficient and 
transparent. We reconvene today to check on the office's 
compliance and progress.
    OIRA plays a key role in shaping hundreds of important 
rules such as those that safeguard food supply, guarantee 
buildings are accessible for the disabled, promote public 
safety, and protect the quality of our drinking water, about 
which we had a hearing this morning and into the afternoon, and 
we will have another one Thursday.
    Despite the powerful impact this agency has on the lives of 
all Americans, OIRA operates mostly in the shadows. And from a 
good government point of view, greater transparency might be 
warranted. Unfortunately, there continues to be a documented 
lack of transparency within this small statutory office housed 
within the Office of Management and Budget. Over the years, GAO 
has repeatedly found that OIRA, under multiple administrations, 
has failed to meet the transparency requirements contained in 
the relevant Executive orders that prescribe the principles and 
procedures OIRA should follow when conducting regulatory 
review.
    In last year's hearing, I mentioned GAO's recommendations 
issued in 2003 to address transparency challenges. GAO followed 
up with a report in 2009 again noting transparency issues and 
providing additional recommendations. To date, OIRA appears to 
have implemented only nine of those 25 identified 
recommendations. And obliviously, today, we are going to hear 
from Mr. Shelanski about that progress or lack thereof.
    Furthermore, I believe the public and OIRA would be best 
served if it provided a guidance to agencies to ensure that 
they consistently report changes suggested by OIRA in the 
rulemaking dockets, disclose information about all outside 
parties it meets with regarding rulemaking, and ensure that the 
informal rulemaking reviews, which are in place to streamline 
and verify the process, are not misused to reduce the very 
transparency we are seeking.
    Congress and the American people have a right to know why 
some rules sit under OIRA review for years when the review 
process is supposed to be 90 days. There are currently 31 
regulatory actions that have been under OIRA review for more 
than 90 days, some considerably more.
    In closing, I also do want to recognize that OIRA has an 
incredibly difficult challenge and a hardworking and dedicated 
core of career staff that is providing first-rate quantitative 
analysis weighing complex economic costs against potential 
benefits. And somebody has got to do that because sometimes we 
have rhetoric up here that presupposes all regulation is bad 
and none of it ever has any positive externalities. And that is 
flat out untrue, and experience tells us that.
    So to have an independent agency that is doing that 
codification, doing that kind of analysis is critical, but as 
the chairman indicated and I certainly support, but 
transparency, in order to have validation, in order to have 
credibility, there has to be transparency.
    And so I thank the chair for having another hearing on this 
matter, and I welcome our panelists and look forward to the 
testimony.
    Mr. Meadows. I thank the gentleman from Virginia. I would 
also like to make note that we will hold the record open for 5 
legislative days for any other members who would like to submit 
a written statement.
    We will now recognize our panel of witnesses, and I am 
pleased to welcome the Honorable Howard Shelanski, 
Administrator of the Office of Information and Regulatory 
Affairs at the office of OMB; Ms. Michelle Sager, Director of 
Strategic Issues at the Government Accountability Office; Mr. 
Richard Williams, Vice President of Policy Research and 
Director of Regulatory Studies Program at the Mercatus Center 
at George Mason University; and Mr. Sam Batkins, is that 
correct?
    Mr. Batkins. Yes, it is.
    Mr. Meadows. Batkins, Director of Regulatory Policy at the 
American Action Forum. Welcome to you all. And pursuant to 
committee rules, all witnesses will be sworn in before they 
testify, so I would like to ask you to rise. Please raise your 
right hand.
    [Witnesses sworn.]
    Mr. Meadows. Thank you. Please be seated and let the record 
reflect that all witnesses answered in the affirmative.
    And in order to allow time for discussion, please limit 
your oral testimony to 5 minutes, but your entire written 
statement will be made part of the record.
    And, Mr. Shelanski, we will recognize you for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF HOWARD SHELANSKI

    Mr. Shelanski. Thank you, Mr. Chairman.
    Thank you for the invitation to appear before you today. 
I'm pleased to have this opportunity to discuss the role that 
the Office of Information and Regulatory Affairs (OIRA) plays 
in the Federal regulatory process.
    Regulatory process in the United States is premise to an 
unrivaled degree on two principles: transparency and 
accountability. One of my priorities at OIRA has been to 
increase the transparency of the regulatory process by 
improving notice and predictability for the public. During my 
tenure, we have timely published each spring and fall the 
Unified Agenda and Regulatory Plan, which shows agency 
rulemaking activity for the year that follows.
    To further promote transparency, OIRA maintains a rigorous 
process when it comes to the review of individual regulations. 
First and foremost, OIRA consistently upholds the established 
standards the draft rules and their accompanying analyses must 
meet under applicable Executive orders, statutes, and published 
guidance.
    While OIRA takes the time necessary to ensure thorough 
interagency review of regulations, we are mindful that 
unnecessary delays in the publication of rules are potentially 
harmful across the board, harmful to stakeholders wishing to 
comment on proposed rules, to businesses and other entities 
that must make plans to comply with rules, and to parties 
denied the benefits of regulation.
    Under the Administrative Procedure Act, agencies must 
generally provide the public with an opportunity to comment on 
proposed rules before the agency can finalize those rules. OIRA 
plays an important role in this process by ensuring that 
agencies' regulatory proposals contain sufficient detail, 
explanation, and underlying analysis for the public to provide 
meaningful comments and response. Such transparency is 
essential to the public's ability to influence the regulations 
with which they must eventually live.
    Once an agency drafts the final rule for publication, OIRA 
again plays an important role by ensuring that the agency takes 
account of the public comments on the earlier proposal, that 
the final rule logically follows from the proposed rule and 
those public comments and that the agency's final rule is well-
grounded in the record evidence and meets applicable economic 
analytical requirements. Such accountability is essential to 
ensuring that agencies heed public comment and issue rules that 
are effective and efficient.
    As the discussion above implies, when an agency submits a 
draft final or proposed rule to OIRA, the rule is not yet 
finished and may change during the review period. OIRA 
circulates the rules to other Federal offices and agencies for 
comment and examines the rule for the quality of its underlying 
evidence and analysis. OIRA then transmits the comments from 
other Federal agencies, as well as its own comments on the 
rule, back to the rulemaking agency. Once this process is 
concluded, OIRA concludes review and the rule goes back to the 
agency for publication in the Federal Register.
    The Executive orders require the agency, upon request, to 
make publicly available both the version of the rule the agency 
originally submitted to OIRA, as well as the final published 
version so that the public can see any changes that occurred 
during interagency review.
    To further ensure accountability and transparency in the 
regulatory review process, when an agency submits the rule to 
OIRA, the submission appears publicly the next day on OIRA's 
Web site reginfo.gov. Stakeholders, therefore, have notice that 
OIRA is initiating review. This notice is important because, 
pursuant to Executive Order 12866, OIRA meets with any party 
interested in providing any input on a regulation under review.
    The entities with which OIRA typically meets includes State 
and local governments, businesses, trade associations, unions, 
and advocates from environmental health and safety 
organizations. OIRA posts a searchable log of all such meetings 
on its Web site, and that log now includes both meetings that 
have already taken place and also upcoming meetings.
    The Regulatory Right-to-Know Act, which calls for OMB to 
submit to Congress each year an accounting statement and 
associated report, promotes additional accountability. This 
report includes an estimate of the total annual benefits and 
costs of Federal rules and paperwork in the aggregate by agency 
and agency program and by major rule. OIRA issued its final 
2015 report on the costs and benefits of Federal regulations 
earlier this month.
    Finally, a hallmark of this administration's commitment to 
transparency and accountability is our retrospective review 
effort. Agencies submit reports on the status of their 
retrospective review efforts every 6 months. Agencies release 
their most recent reports on March 4 and will submit their next 
set to OIRA this summer. The agency's regulatory look-back 
efforts to date are expected to yield an estimated net 5-year 
savings of $28 billion so far.
    In conclusion, the United States is perhaps the most 
transparent and accountable regulatory system in the world. 
OIRA's review of executive branch regulations plays an 
important role in that system. OIRA will therefore continue its 
efforts to remain accessible to the public during regulatory 
review to work with agencies to provide the public with notice 
of planned regulatory activities and to ensure that the 
government regulates this effectively and efficiently as 
possible to the net benefit of all Americans.
    Thank you for your time and attention. I would be happy to 
answer any questions you may have.
    [Prepared statement of Mr. Shelanski follows:]
    [GRAPHIC] [TIFF OMITTED] T6028.001
    
    [GRAPHIC] [TIFF OMITTED] T6028.002
    
    [GRAPHIC] [TIFF OMITTED] T6028.003
    
    [GRAPHIC] [TIFF OMITTED] T6028.004
    
    Mr. Meadows. Thank you.
    Ms. Sager, you are recognized for 5 minutes.

                  STATEMENT OF MICHELLE SAGER

    Ms. Sager. Thank you. Chairman Meadows, Ranking Member 
Connolly, members of the subcommittee, thank you for inviting 
me here today to discuss GAO's work.
    We have consistently found opportunities to improve 
regulatory transparency, and I am honored to represent GAO and 
share a selection of our findings. My written statement 
provides additional detail, as well as references to the 
multiple reports that inform my remarks today.
    In the next few minutes, I will highlight findings from 
recent reports with a focus on, first, aspects of the 
regulatory review process that could be more transparent; and 
second, additional opportunities to enhance transparency and 
oversight of the rulemaking process.
    First, our reports on cost-benefit analysis, rule 
development, and OMB's role in reviews of agencies' rules 
illustrates specific opportunities to increase the transparency 
of the regulatory review process. For example, with regard to 
cost-benefit analysis, our 2014 report found that reviews of 
agencies' rules sometimes did result in changes, but the 
transparency of the review process could be improved.
    In that report, we made three recommendations to OMB. 
First, that OMB work with agencies to clearly communicate the 
reasons for designating significant regulations and explain the 
reason for any changes to an agency's initial assessment of a 
regulation's significance.
    And second, we recommended that OMB encourage agencies to 
state in the preamble section of the Executive order definition 
of a significant regulatory action that applies to that 
particular regulation. OMB implemented the first recommendation 
in that report.
    Second, additional opportunities do exist to enhance 
transparency and congressional oversight of the rulemaking 
process. OMB plays a very important role in this process 
through oversight and by providing guidance to agencies on how 
they should comply with the various requirements.
    GAO reports covering a range of topics such as regulatory 
guidance, retrospective regulatory review, and exceptions for 
expediting the rulemaking process illustrate additional 
opportunities to enhance transparency. So, for example, 
retrospective analysis can help agencies evaluate how well 
existing regulations work in practice and also determine 
whether they should be modified or perhaps even repealed.
    In a 2014 report, we found that agencies often did change 
their regulations in response to completed retrospective 
analysis, but they could improve reporting on their progress 
and also strengthen linkages between their retrospective review 
and agencies' performance goals.
    We also concluded that OMB could enhance transparency of 
the information provided to the public. We made three 
recommendations in this report: first, that OMB improve 
reporting on retrospective regulatory review outcomes; second, 
to improve how these reviews could be used to help agencies 
achieve their agency priority goals; and third, to ensure that 
OIRA monitor the extent to which agencies have implemented 
guidance on these reviews and then confirm that agencies have 
identified how they would assess the performance of regulations 
in the future. Staff from OIRA generally agreed with these 
three recommendations, and last year, the administrator 
indicated that the agency was indeed taking actions to address 
them.
    In summary, as you see in my written statement, OIRA has 
implemented nine of the 25 recommendations in the selected 
reports outlined in the written statement. We believe that the 
other 16 related recommendations that have not been implemented 
still have merit and, if acted upon, would improve the 
transparency of Federal rulemaking. In a step in that 
direction, last year, the administrator noted that OIRA has 
worked with agencies to help them with their Executive order 
disclosure requirements.
    Increased transparency of the rulemaking process holds 
potential benefits for your continued oversight, as well as for 
increased public awareness and understanding of the rulemaking 
process for the regulations that affect all of us as citizens 
and as taxpayers.
    Chairman Meadows, Ranking Member Connolly, members of the 
subcommittee, this concludes my prepared statement. I look 
forward to any questions that you may have. Thank you.
    [Prepared statement of Ms. Sager follows:]
    [GRAPHIC] [TIFF OMITTED] T6028.005
    
    [GRAPHIC] [TIFF OMITTED] T6028.006
    
    [GRAPHIC] [TIFF OMITTED] T6028.007
    
    [GRAPHIC] [TIFF OMITTED] T6028.008
    
    [GRAPHIC] [TIFF OMITTED] T6028.009
    
    [GRAPHIC] [TIFF OMITTED] T6028.010
    
    [GRAPHIC] [TIFF OMITTED] T6028.011
    
    [GRAPHIC] [TIFF OMITTED] T6028.012
    
    [GRAPHIC] [TIFF OMITTED] T6028.013
    
    [GRAPHIC] [TIFF OMITTED] T6028.014
    
    [GRAPHIC] [TIFF OMITTED] T6028.015
    
    [GRAPHIC] [TIFF OMITTED] T6028.016
    
    [GRAPHIC] [TIFF OMITTED] T6028.017
    
    [GRAPHIC] [TIFF OMITTED] T6028.018
    
    [GRAPHIC] [TIFF OMITTED] T6028.019
    
    [GRAPHIC] [TIFF OMITTED] T6028.020
    
    Mr. Meadows. Thank you, Ms. Sager.
    Dr. Williams, you are recognized for 5 minutes.

                 STATEMENT OF RICHARD WILLIAMS

    Mr. Williams. Thank you. Chairman Meadows, Ranking Member 
Connolly, and members of the subcommittee, thank you for 
inviting me to testify today.
    I want to offer my perspective as someone who has worked 
both at OIRA briefly and at an agency, the FDA. I know how 
difficult it is for economists at agencies to produce high-
quality unbiased analysis, but also how difficult a job OIRA 
analysts have ensuring that regulations are solidly grounded in 
good analysis. When they are so grounded, regulations address 
real problems, actually help to solve those problems and with 
reasonable cost.
    Good analysis helps the public to understand the likely 
effects of regulation, i.e., make them transparent. But the job 
for OIRA analysts is becoming much more difficult because of 
the growing imbalance between OIRA and the agencies they're 
expected to regulate. While Federal agencies have grown to 
twice the size that they were in 1980, OIRA, the arm of OMB 
that's supposed to oversee regulations, has been halved. 
Regulatory agencies now have about 280,000 employees versus 
about 40 in OIRA.
    And OIRA only looks at a small percentage of the 3 to 4,000 
regulations that we get each year. Between 2004 and 2014, they 
only looked at 8 percent, and they've only returned one 
regulation in the last 5 years. But even with those they do 
review, the record is not an encouraging one. In that same 10-
year period, only 116 out of roughly 3,000 major rules had 
estimates of both benefits and costs, and many of those 
estimates were quite poor.
    So where OIRA was reasonably effective at the outset, the 
growing imbalance between OIRA and the agencies is producing 
these poor results. It is now David versus Godzilla. Take one 
example from a recent rule produced under the Food Safety and 
Modernization Act. The food industry estimated that it would 
cost more than $18 billion to comply with just one rule, the 
packaged food rule. Yet in its analysis of that rule, FDA 
claimed not to have any idea whether or not it would make an 
impact on food safety.
    OIRA should have been in a position to stop this rule. This 
was a rule to reduce risk, and OIRA is at a disadvantage when 
they are reviewing risk-related rules. Assessing risk is an 
activity that virtually every American engages in every day, 
and they do so objectively. In agencies, regulations are often 
based on formalized risk assessments to determine the baseline 
risk and the amount of risk that will be reduced by the 
regulation. If these assessments are inaccurate, then the 
benefits of the rule will be inaccurate. In fact, time and 
again, agencies overstate risk or the amount of risk produced. 
So OIRA needs risk assessors to be able to review the analyses 
to make sure that benefits can be compared to costs.
    But OIRA has another role to play beyond reviewing 
regulations: ensuring that the public has enough information 
and time to adequately comment on the rules that often take 
years to develop, run to thousands of pages, some including 
very complex analysis. Typically, the public gets 60 to 90 days 
to respond, and that's insufficient.
    So what can help? First, I think to get better analysis you 
can restore OIRA to its original size, which was about 90. In 
addition, ensure that OIRA has qualified risk assessment--
assessors on staff. Second, you can codify the economic 
Executive order a little, make it much more enforceable.
    In terms of the public, it's important to let the public 
know what's coming and how to respond. The current system seems 
designed to inhibit public comment. To accomplish this, there 
are several things that can be done. First, have OIRA, in 
conjunction with GAO, enhance the Unified Agenda to make 
agencies include more information in proposals, which would 
include a statement of the problem, the legal basis, 
alternatives for solving the problem, and a preliminary 
discussion of the benefits and costs.
    For bigger rules, agencies should be required to publish an 
advance notice of proposed rulemaking with an expanded 
discussion of what's in the Unified Agenda. This will give the 
public, particularly small businesses, much more time to 
formulate a constructive information-rich comment that clearly 
communicates and supports their claims, as the Federal 
Government asked them to do.
    OIRA should also be charged with making it easier to find 
out when a particular industry has to comply with various rules 
from different agencies. So, for example, an industry can get 
regulations from the IRA, from EPA, and from OSHA, and they can 
have different dates that are all running together. OIRA could 
create online calendars by industry that would list the 
compliance dates for various rules. In fact, OIRA could go 
further. They could coordinate with agencies to make sure that 
no industry is faced with bunched up compliance dates.
    OIRA has a long and distinguished history in helping to 
solve social problems, but they are simply outgunned as 
Congress has allowed this agency to dwindle in size and 
importance. But given the size and reach of the regulatory 
state, this is a much-needed check for the President to 
exercise some degree of control over the regulatory agencies
    Thank you, and I welcome your comments.
    [Prepared statement of Mr. Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T6028.021
    
    [GRAPHIC] [TIFF OMITTED] T6028.022
    
    [GRAPHIC] [TIFF OMITTED] T6028.023
    
    [GRAPHIC] [TIFF OMITTED] T6028.024
    
    [GRAPHIC] [TIFF OMITTED] T6028.025
    
    [GRAPHIC] [TIFF OMITTED] T6028.026
    
    [GRAPHIC] [TIFF OMITTED] T6028.027
    
    [GRAPHIC] [TIFF OMITTED] T6028.028
    
    [GRAPHIC] [TIFF OMITTED] T6028.029
    
    Mr. Meadows. Thank you, Dr. Williams.
    Mr. Batkins, you are recognized for 5 minutes.

                    STATEMENT OF SAM BATKINS

    Mr. Batkins. Thank you, Chairman Meadows, Ranking Member 
Connolly, and members of the committee.
    At the outset, I just want to reiterate some of the 
testimony we have heard today and note that OIRA does play a 
critical role in our regulatory process. When you consider that 
40 or 50 employees have to review the work of tens of thousands 
of regulators reviewing roughly 400 rulemakings annually, 
sometimes highly technical, it is a testament that we've had, I 
think, six administrations help to establish and advance the 
work of OIRA, three Democrats and three Republicans to help 
advance the work of OIRA.
    With that said, there are obviously transparency and 
reporting concerns at the Office of Information and Regulatory 
Affairs. And if you look--take a look back at the last 20 or 30 
years of regulatory reform, you'll find sometimes OIRA is very 
much at the center of those reform efforts, but all of them 
have transparency and reporting issues, and you can sort of 
just go down the litany, you know, some of which has been well 
litigated in the past, issues with the Unified Agenda, the 
Congressional Review Act, the Unfunded Mandates Reform Act, the 
Information Collection Budget, which reports on cumulative 
paperwork totals as part of the Paperwork Reduction Act. OIRA 
reports to Congress and implementation of Executive Orders 
13563 and 13610.
    On the Unified Agenda it's again well-known that in 2012 
there just for some reason wasn't a spring Unified Agenda for 
whatever reason, and to our knowledge that's the only instance 
when there weren't two Unified Agendas published in a calendar 
year.
    With regard to the Congressional Review Act, there was a 
recent report from the Administrative Conference of the United 
States, which found thousands of rulemakings that were never 
submitted to GAO as part of the CRA process, which would then, 
I guess in practice, could deprive Congress of its oversight 
ability under the CRA. Now, agencies do have a responsibility 
to submit rules to GAO under the CRA, but OIRA also has a 
responsibility to label rules as major under the CRA procedure 
as well.
    With regard to the Information Collection Budget, I know 
that's a somewhat obscure report on paperwork, but it's--has 
been more than 500 days since our last update of the 
Information Collection Budget.
    And finally, on implementation of Executive Orders 13563 
and 13610, which were ostensibly designed to modify, 
streamline, expand, or repeal the existing regulatory state, we 
saw op-eds in the Wall Street Journal about moving to a 21st 
century regulatory system and streamlining and repealing 
redundant regulation. And if you actually look at the 4 to 500 
rulemakings contained in these reports, you will find notable 
examples of rulemakings that do cut costs and paperwork. But 
from our account, they are often dwarfed by all the new 
rulemakings that, for example, implements the Affordable Care 
Act. And we sort of struggle to understand how implementation 
of the Affordable Care Act constitutes retrospective review 
designed to streamline or eliminate red tape.
    And there are some other notable examples as well. 
Department of Education's Gainful Employment Rule, which has 
billions of dollars in costs and millions of paperwork hours, 
is also included in these retrospective reports.
    In addition to the controversial Waters of the United 
States Rule, which has found its way in EPA and DOD's section 
of the report, along with CAFE standards, the 2017 to 2025 CAFE 
standards. And by our account the last report that was issued, 
if you include the regulatory costs and the regulatory cost-
cutting measures, it contains roughly $16 billion in costs and 
6.5 million in new paperwork burden hours.
    And finally, an issue which I'm sure the committee is 
familiar with of midnight regulation, this is something that 
Administrator Shelanski has already issued a memorandum to 
agencies sort of outlining the procedure for regulations during 
this presidential transition year. Similar memos were issued in 
2008. Of course, that at the time did not stop sort of the 
flood of regulations that happened during that time, and 
there's a lot of quantified evidence showing that flood of 
regulation.
    And just to give you an idea of how quickly things can run 
through the process with a willing executive, we found some 
Department of Energy regulations in 2000 and 2008 where the 
entire life of the rulemaking from proposed rule to final 
publication in the Federal Register was less than the comment 
periods for some notable regulations during the proposed cycle, 
so the entire history of rulemaking of just, you know, about 
100 days.
    So, finally, another issue again related to the 
Congressional Review Act is the carryover provision, which, by 
our calculation and by the Congressional Research Service 
calculation, this year will be somewhere around mid- to late 
May, which means that any regulation issued after that date 
Congress and the next administration could review in 2017, 
which there is certainly an incentive for the administration to 
have sort of a mini-rush in regulation during this spring so as 
to avoid any review under the CRA in 2017. We haven't seen any 
evidence of that so far, but that's something that we'll 
certainly be monitoring this spring going forward.
    Thank you.
    [Prepared statement of Mr. Batkins follows:]
    [GRAPHIC] [TIFF OMITTED] T6028.030
    
    [GRAPHIC] [TIFF OMITTED] T6028.031
    
    [GRAPHIC] [TIFF OMITTED] T6028.032
    
    [GRAPHIC] [TIFF OMITTED] T6028.033
    
    [GRAPHIC] [TIFF OMITTED] T6028.034
    
    [GRAPHIC] [TIFF OMITTED] T6028.035
    
    [GRAPHIC] [TIFF OMITTED] T6028.036
    
    [GRAPHIC] [TIFF OMITTED] T6028.037
    
    [GRAPHIC] [TIFF OMITTED] T6028.038
    
    Mr. Meadows. Thank you, Mr. Batkins.
    The chair recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here.
    Mr. Shelanski, would you agree that part of the core 
mission of OIRA is to ensure that agencies analyze less-
burdensome means of fulfilling policy objectives?
    Mr. Shelanski. One of the things that we ask agencies to do 
is to analyze regulatory alternatives when such are available.
    Mr. Carter. And to analyze less-burdensome ones, correct?
    Mr. Shelanski. When there's a less-burdensome alternative 
available, we ask them to ----
    Mr. Carter. Okay. Well, as you may be aware, the Department 
of Labor has proposed a very complex Fiduciary Rule. You are 
familiar with that?
    Mr. Shelanski. Yes, I am, sir.
    Mr. Carter. Okay. Yet OIRA has not ensured that the 
Department of Labor has analyzed any less-burdensome options to 
the currently proposed rule. In fact, the Department of Labor 
openly refused to do that, openly refused to analyze any other 
options. Don't you see that as being a direct conflict to what 
the core mission of OIRA is?
    Mr. Shelanski. Thank you, Congressman Carter. The rule is 
still under review at OIRA, and so we have an ongoing review on 
the Conflict of Interest rule, or the Fiduciary Rule as you 
referred to. So that review is not yet complete. And I can 
assure you that all of the input, all of the public comment, 
all of the relevant issues are being seriously considered 
during that review, which is, as I said ----
    Mr. Carter. So before the Department of Labor implements 
this rule, you are telling me that it has got to be approved by 
OIRA?
    Mr. Shelanski. The rule is--the final rule is currently 
under review in my office that has to--we have to complete that 
review before they can publish it in the Federal Register and 
implement it.
    Mr. Carter. How long have you been reviewing this 
particular rule?
    Mr. Shelanski. I'd have to check how long we've had it. 
We've had it for a good bit of time.
    Mr. Carter. A good bit of time being?
    Mr. Shelanski. Again, I would have to check exactly when it 
came in.
    Mr. Carter. Okay. So I just want to make sure I am clear on 
this now. So the Fiduciary Rule that Department of Labor is 
proposing, you have to approve it first before it can be 
published by the Department of Labor and become the rule, the 
law?
    Mr. Shelanski. Yes, we have to conclude review on this 
final rule just as we did on the proposed rule, so it's back 
with us for a second time and they cannot publish the rule in 
the Federal Register until my office concludes review.
    Mr. Carter. And again, I want to make sure I understand the 
core mission. The core mission of OIRA is to make sure that 
agencies are looking at less-burdensome means for fulfilling 
policy objectives ----
    Mr. Shelanski. The core ----
    Mr. Carter.--right?
    Mr. Shelanski. One of the elements of our core mission is 
to find by the Executive orders and relevant statutes is to 
make sure the agency has analyzed and considered regulatory 
alternatives ----
    Mr. Carter. This is certainly a case where we have asked 
the Department of Labor to look at some less-burdensome rules, 
so we are depending on you to fulfill this core mission, okay?
    Mr. Shelanski. Understood, sir.
    Mr. Carter. Understood, okay. Let me ask you something. 
Have you received any instructions from the Department of Labor 
or the White House regarding any kind of timeline for the 
review of this particular Fiduciary Rule?
    Mr. Shelanski. We clearly want to complete our review 
within a reasonable period of time ----
    Mr. Carter. That is not what I asked, okay. I am sorry. I 
will try to be succinct. Have you been given any instructions 
from the Department of Labor or from the White House regarding 
a timeline for the review of this Fiduciary Rule? Yes or no?
    Mr. Shelanski. No.
    Mr. Carter. No, you have not. Have you received any kind of 
communication from the White House or from the Department of 
Labor regarding the importance of getting this Fiduciary Rule 
done as quickly as possible?
    Mr. Shelanski. Yes, of course.
    Mr. Carter. You have? Can you make that communication 
available to us, to this committee?
    Mr. Shelanski. The communication comes in the form of a 
conversation sometimes, which is we're submitting ----
    Mr. Carter. Do you have anything in writing?
    Mr. Shelanski. Probably not, no.
    Mr. Carter. Probably not, but it comes in the form of 
communication.
    Mr. Chairman, how do we handle something like that? Because 
I would be really interested in knowing what exactly has been 
communicated.
    Mr. Meadows. Well, certainly emails and other types of 
messages would have to be preserved, so is it the ----
    Mr. Shelanski. Yes, I've preserved ----
    Mr. Meadows.--gentleman's testimony that there was none of 
that, that it was all verbal?
    Mr. Shelanski. Mr. Meadows, I would have to go back and 
check. I mean, these come in the form of conversations. When we 
receive briefings on a rule, we'd really like to move this 
forward so that the industry has notice of what's coming so 
that they will have the opportunity to plan their compliance 
with any rule.
    This is rather standard. I mean, I work in the White House 
so it's rather normal that I would have conversations with 
other officials in the White House bearing on policy issues. So 
----
    Mr. Carter. Okay. Well, let me ask you this way then. Have 
you received any directions from the White House or from the 
Department of Labor to make this happen, to make this rule--to 
let this rule go through?
    Mr. Shelanski. Both the White House policy offices and the 
Department of Labor are absolutely aware that we must be left 
independently to review this rule. And I have received no order 
about any specific outcome from our review process from ----
    Mr. Carter. I am going to ask you again, if you have 
anything in writing, will you please make that available to 
this committee?
    Mr. Shelanski. I will go back and see what I have and I 
will ----
    Mr. Carter. That ----
    Mr. Shelanski.--consult--but I would ask you to please 
route any such requests through our Legislative Affairs Office, 
and they will come back to me and, you know, endeavor to get 
you all the information you need.
    Mr. Carter. Okay. Can I have one final one?
    Mr. Meadows. [Nonverbal response.]
    Mr. Carter. Okay. One final question. Would you agree, Mr. 
Shelanski, that one of the core missions is to ensure that the 
agency addresses any concerns raised by other agencies?
    Mr. Shelanski. Absolutely. That is a core function ----
    Mr. Carter. So the SEC has raised 30--excuse me. The SEC 
has raised 26 concerns, 26 regarding the Department of Labor's 
Fiduciary Rule, yet the Department of Labor rejected the 
majority of them. Have you and OIRA--have you addressed any of 
these that have been raised by the SEC or is that what you are 
doing now?
    Mr. Shelanski. As I say, we have the rule under review. All 
concerns are being considered.
    Mr. Carter. Including the 26 concerns by the SEC?
    Mr. Shelanski. All of the substantial interagency concerns 
are dealt with during the review process.
    Mr. Carter. Okay. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    The gentleman from Virginia has been very kind to let the 
chairman of the full committee Mr. Chaffetz be recognized for a 
series of questions.
    Mr. Chaffetz. Thank you, Chairman. And I appreciate Mr. 
Connelly. Thank you for your generosity and cooperation.
    Mr. Shelanski, I want to understand what you believe your 
duty and obligation is to respond when Congress sends you a 
letter. And specifically, I am talking about the Oversight and 
Government Reform Committee. I am the chairman of this 
committee. I have sent you on the Waters of the United States 
two letters and a subpoena, and yet we still have an incomplete 
document production. That subpoena was July of last year. What 
do you feel your duty and obligation is to respond when we send 
you a letter?
    Mr. Shelanski. So, first of all, let me say that I think 
the oversight function that this committee and all 
congressional committees perform are vitally important. And so 
I fully agree with and support and would endeavor to get you 
all the information you need for your lawful oversight 
functions. I believe that's a critical function.
    We do respond to all correspondence that were received from 
Congress. We have a process that that goes through. And it's my 
understanding that we have a very robust ongoing discussion 
between your staffs in your offices and the Legislative Affairs 
Office and General Counsel's Office at OMB to respond to your 
requests.
    Mr. Chaffetz. I don't want to have any more staff 
discussions. My question is what duty do you believe you have 
to respond to us?
    Mr. Shelanski. I believe it is my duty to turn over all 
documentation to our General Counsel's Office and our 
Legislative Affairs Office that is currently engaged in the 
process of producing documents and witnesses for you.
    Mr. Chaffetz. So in the case of WOTUS, the Waters of the 
United States, when is it reasonable for us to expect you to 
produce a full, complete, 100 percent document production? What 
is a reasonable time for your response?
    Mr. Shelanski. Again, I am not personally involved with --
--
    Mr. Chaffetz. What do you mean you are not personally 
involved? You are in charge of this organization so ----
    Mr. Shelanski. I am not personally involved with the 
process that has been ongoing for months between the General 
Counsel's Office of OMB and the Legislative Affairs Office.
    Mr. Chaffetz. So who do we ----
    Mr. Shelanski. The process ----
    Mr. Chaffetz. Who do we call before this committee that 
will take accountability here, general counsel? What is his 
name or her name?
    Mr. Shelanski. Again, I do not have personal involvement 
with the negotiations that are ongoing.
    Mr. Chaffetz. We are not here to negotiate. Why should we--
you gave us a very--you said we have a valuable constitutional 
duty. Why should we have to negotiate what you are going to 
give to us?
    Mr. Shelanski. My understanding is that there is a process 
in place, Mr. Chaffetz, by which you have received thousands of 
pages of documents ----
    Mr. Chaffetz. No, most of those ----
    Mr. Shelanski.--witnesses for transcribed ----
    Mr. Chaffetz. Let me ----
    Mr. Shelanski.--interviews, and all of my documents are 
turned over. Again, I am not personally involved in the 
negotiations that you and your office ----
    Mr. Chaffetz. Give me some names. Who are the people that 
are involved?
    Mr. Shelanski. I would refer you to our Legislative Affairs 
Office ----
    Mr. Chaffetz. No, no, no.
    Mr. Shelanski.--for all that information.
    Mr. Chaffetz. See, this is the runaround we get. I issued a 
subpoena in July of last year. Why shouldn't I hold somebody in 
contempt?
    Mr. Shelanski. My understanding is that subpoena is the 
process of being answered. You have already done one 
transcribed interview ----
    Mr. Chaffetz. I am asking you what a reasonable amount of 
time is to get a response.
    Mr. Shelanski. Again, the process is ongoing.
    Mr. Chaffetz. Seven months, is that reasonable?
    Mr. Shelanski. Again, I refer you to our Legislative 
Affairs Office. It is managing this process ----
    Mr. Chaffetz. Give me some names, Mr. Shelanski.
    Mr. Shelanski. I'd be ----
    Mr. Chaffetz. You are saying you are not responsible, but 
you are the administrator of this office so ----
    Mr. Shelanski. Mr. Chaffetz, I am responsible for turning 
over all of my documentation and getting you all the 
information, all the information to our General Counsel's 
Office. They have been working with your offices for months. I 
am not going to step outside of a robust, ongoing process ----
    Mr. Chaffetz. So you don't believe that your responsibility 
is to respond to Congress. You believe your responsibility is 
to respond to an attorney at the White House?
    Mr. Shelanski. I disagree with your characterization.
    Mr. Chaffetz. Well, I am just trying to repeat what you 
just told me. You said your responsibility is to give it to the 
General Counsel.
    Mr. Shelanski. I have turned over all of my documentation, 
everything that I have on that rule. They are in a robust 
process that has been going on with your office that you were 
participating in that is ongoing, that has led to a large 
document production ----
    Mr. Chaffetz. It is not a large ----
    Mr. Shelanski.--and ongoing document production and 
witnesses.
    Mr. Chaffetz. It is not a large--most of which we have. The 
overwhelming majority is publicly available documents. I can go 
to the internet and get it, you know, just download it.
    What we have asked for is the list of people and the 
documents themselves. I am asking a simple question. What is a 
reasonable amount of time for Congress to get that information?
    Mr. Shelanski. My understanding is that this is a process 
that has been ongoing that has been producing you documents. I 
have turned everything over that I have to the people that I 
work with at the offices ----
    Mr. Chaffetz. So you believe that the general counsel has 
100 percent of the documents?
    Mr. Shelanski. The general counsel has 100 percent of my 
documents. I am only involved with my documents. I'm not ----
    Mr. Chaffetz. See, this administration is just playing 
hide-the-documents. I am trying to figure out how and where are 
these documents and who--give me the name of the general 
counsel.
    Mr. Shelanski. I believe that your office is deeply 
involved with the General Counsel's ----
    Mr. Chaffetz. No, no, no ----
    Mr. Shelanski.--Office ----
    Mr. Chaffetz.--did you misunderstand my question? My 
question is give me the name of the person.
    Mr. Shelanski. I'm going to refer you to our Legislative 
Affairs Office. You ----
    Mr. Meadows. Mr. Shelanski, you have got to answer the 
question. Either you don't know or you have to answer the 
question.
    Mr. Chaffetz. You are under oath. Do you know that person's 
name?
    Mr. Shelanski. Yes, I do.
    Mr. Chaffetz. Then what is his name.
    Mr. Shelanski. It's a her.
    Mr. Chaffetz. What is her name?
    Mr. Shelanski. Her name is Ilona Cohen, as your staff well 
knows.
    Mr. Chaffetz. Well, I am asking you the questions. Why do I 
have to spend 3 minutes trying to get you to give me a name.
    Mr. Shelanski. Mr. Chaffetz, we have had a very robust 
back-and-forth ----
    Mr. Chaffetz. You can keep using that word robust. I know 
you trained up on it. I asked you a simple question. I send you 
a subpoena, I send you letters. We shouldn't have to yank you 
up here.
    Mr. Shelanski. And I gave you a very simple answer. I've 
turned over all of my documents to the people who are working 
closely with your office and producing those documents, 4,000 
pages of documents, at least one transcribed interview, so I've 
heard, and more of them scheduled. There is an ongoing process, 
so I do not think it is a fair characterization that you have 
not received an answer.
    Mr. Chaffetz. Well, I expect to get 100 percent of the 
documents so ----
    Mr. Shelanski. A hundred percent of my documents are turned 
over. I am not personally involved with ----
    Mr. Chaffetz. Turned over to--not to us.
    Mr. Shelanski. To our Legislative Affairs Office and our 
General Counsel's Office that is working with your office to 
get you ----
    Mr. Chaffetz. That is not ----
    Mr. Shelanski.--what you need.
    Mr. Chaffetz.--an acceptable answer.
    Mr. Shelanski. Well, I'm ----
    Mr. Chaffetz. You are failing in your duty to respond to 
Congress, and I quite frankly don't understand why we shouldn't 
hold you personally in contempt of Congress.
    Mr. Shelanski. That's certainly your prerogative ----
    Mr. Chaffetz. I yield back.
    Mr. Shelanski.--Mr. Chaffetz.
    Mr. Chaffetz. Yes, it is. I will yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the ranking member of the 
subcommittee, Mr. Connolly, for a series of questions for 5 
minutes.
    Mr. Connolly. I thank the chair, and welcome to the panel.
    Let me begin. Ms. Sager, since '03 GAO has had seven 
reports, I believe, on OIRA, is that correct, containing a 
total of 25 recommendations over the course of the seven 
reports?
    Ms. Sager. Correct. We focused on ----
    Mr. Connolly. You have got to turn on your mic.
    Ms. Sager. We focused on seven reports in the written 
statement that had--specific aspects of those reports had 
recommendations to OMB, to OIRA related to transparency.
    Mr. Connolly. And about nine of those recommendations have 
been implemented to your satisfaction?
    Ms. Sager. That's correct.
    Mr. Connolly. And why have 16 not been implemented?
    Ms. Sager. In those cases, either OIRA disagreed with the 
recommendation or there are some where they may have taken 
action and we are still trying to get documentation to close 
the recommendations.
    Mr. Connolly. Mr. Shelanski, can you highlight for us the 
ones with which you disagree?
    Mr. Shelanski. We have ongoing discussions with GAO. I 
would reiterate what Ms. Sager said. We have responded directly 
on a number where we have actually adopted the recommendations. 
There are several others where we are doing things that are 
very much in the spirit of the recommendation but not the 
specific thing that GAO is doing, and I can give you an example 
there. An example would be, for--on getting agencies to talk in 
their preambles about the basis for a significance 
determination. We haven't felt that a formal guidance is 
necessary, but we've encouraged agencies ----
    Mr. Connolly. All right.
    Mr. Shelanski.--to put that kind of information ----
    Mr. Connolly. I think it would be useful if you could 
subsequently submit to the committee that status because it 
sounds bad that 16 of 25 are not being implemented. If some of 
them are in progress, I think we would like to know where you 
object and why with the remainder just for our illumination so 
it is not a transparency issue; it is, you know, a substantive 
issue.
    Going back to this issue of WOTUS, I guess the minority 
staff were under the impression that this would not become a 
WOTUS hearing. But since the issue came up, Mr. Shelanski, I 
wouldn't want to leave the impression that your office has been 
entirely uncooperative with this committee. Your staff came to 
meet with the committee staff on January 29 to discuss subpoena 
compliance, is that correct?
    Mr. Shelanski. Again, I'm not directly involved with the 
subpoena compliance beyond turning over any documents ----
    Mr. Connolly. Are you aware whether your staff meets with 
our staff or not?
    Mr. Shelanski. I am aware there's a process ----
    Mr. Connolly. Well, did they meet on the 29th of January or 
not?
    Mr. Shelanski. I don't know if they met with you on the 
29th of January, Mr. Connolly.
    Mr. Connolly. Okay. After that meeting, it is my 
understanding that your staff agreed to make rolling 
productions available on a monthly basis. Are you aware of 
that?
    Mr. Shelanski. I want to make one clarification. The 
general counsel of OMB is not my staff, and the Legislative 
Affairs Office of OMB are not my staff. Those are peer separate 
offices with OMB. I do not direct their operations, so I think 
I need to clarify that. They handle these matters for the 
Office of Management and Budget, so in working with them, I am 
working through the normal process for subpoena compliance.
    Mr. Connolly. Mr. Shelanski, I have been a corporate 
officer in the private sector. I have been the chief elected 
officer in the public sector. I have run things. And even if 
something is handled by my legal department, if I am in charge, 
I make it my business to know whether we are in compliance, 
especially if I know I am going to be testifying before a 
committee. I am actually trying to help you here, Mr. 
Shelanski, but, you know, you are wiping your hands of this and 
saying it is someone else's responsibility as if you have 
nothing to do with it frankly plays into the hands of your 
critics.
    Mr. Shelanski. Let me be very clear. I will happily, 
willingly, and eagerly do anything that I am advised to do, I 
am told to do that your staffs and our staff agree constitute 
compliance with the subpoena.
    Mr. Connolly. Mr. Shelanski ----
    Mr. Shelanski. For that reason ----
    Mr. Connolly. Mr. Shelanski, I am actually trying to help 
you. It was left out there that you are uncooperative with this 
committee. I am trying to establish for the record that there 
is another side to that story. In fact, your office has 
produced 4,000 pages to this committee. Now, maybe that is not 
to the full satisfaction of somebody or maybe they didn't find 
what they wanted, but it is not like you haven't been meeting 
with this committee and cooperating. But it is not helpful to 
me or you for you to wash your hands of it saying, well, I 
don't know anything about that.
    Mr. Shelanski. No, here's what I know. I ----
    Mr. Connolly. When you are under subpoena. How can the head 
of an office under subpoena tell this committee I am unaware of 
it, I don't know, not my business?
    Mr. Shelanski. That's not what I said, Mr. Connolly. What I 
said is this ----
    Mr. Connolly. It comes damn close to what you said, Mr. 
Shelanski.
    Mr. Shelanski. Well, then let me--if I may, I'd like to 
clarify. I am aware that we have a very serious process 
underway to comply. If we did not, I would be very concerned 
and I would be going internally to say what are we doing to 
comply. But something different is going on. I've turned over 
all of my documents and I have been informed and am regularly 
informed not of a specific date that a meeting takes place but 
that there are ongoing conversations and ongoing document 
productions to this committee. If that were not happening, I'd 
be gravely concerned. But not only that, every time I am told 
we have a request for you to do X, I said fine, tell me what to 
do. I'm ready to do what I--what the process dictates. And this 
is a cooperative process, I have been led to believe, between 
the people on your committee and the people in the Office of 
Management and Budget.
    Mr. Connolly. Yes, how is that working out for you? You 
just heard how cooperative that is. But I can't help somebody 
that doesn't want to cooperate.
    One final point, Dr. Williams, I found your testimony 
helpful in terms of specifics in how to improve the process and 
thank you, and I expect nothing less from one of the 
outstanding universities in the world, George Mason University, 
which just so happens to be located in the 11th District of 
Virginia.
    Mr. Williams. Thank you, Mr. Connolly.
    Mr. Connolly. But thank you. I wish we had a little more 
time to explore because I would like the opportunity to sort of 
work with you and Mr. Shelanski on how practical some of those 
suggestions might be because I think you make a--and then I 
will end. But I think you make a really good point. How can we 
possibly expect Mr. Shelanski and his colleagues at OIRA to 
really fulfill their mission with only 40 people ----
    Mr. Williams. Precisely.
    Mr. Connolly.--when you were talking about this immense 
enterprise. And we can argue whether there should be more or 
less regulation, but whatever the number, it is still 
gargantuan, and one wonders whether just the sheer volume of it 
is something that we need to take a look at in terms of the 
role of OIRA. So I thank you for your testimony, and we are 
going to certainly follow up on that.
    Mr. Williams. Great.
    Mr. Connolly. Thank you, Mr. ----
    Mr. Williams. I will tell you in my short time at OIRA I 
found the job depressing because it is so overwhelming.
    Mr. Connolly. Thank you.
    Mr. Meadows. I thank the gentleman from the 11th District 
of Virginia, home of George Mason.
    The chair recognizes the gentleman from Ohio, Mr. Jordan, 
for a series of questions.
    Mr. Jordan. Thank you, Mr. Chairman. And I probably will 
just use a minute or two here. But I wanted to follow up. I 
think it was about a year ago that Mr. Shelanski was in front 
of the committee and we asked him a few questions, so I kind of 
want to go back there.
    But first of all, Mr. Shelanski, what exactly is the core 
mission of OIRA? What exactly do you do?
    Mr. Shelanski. Well ----
    Mr. Jordan. Because agencies come up with rules that have 
to be put in place when laws are passed and legislation is 
done. Tell me exactly what OIRA does. So tell the committee 
what OIRA does.
    Mr. Shelanski. When the agency has finished a rule, and it 
can be either a proposed rule or a final rule, they submit that 
rule to OIRA. If it's a rule that is determined to be 
significant, we bring it in for review. And we do two things 
when we have it in for review, two primary things. We circulate 
it to other Federal agencies for their comments so that we get 
the interagency views so that there aren't conflicts or 
duplication amongst agencies or problems with jurisdiction. And 
the other thing we do is we look at the rule carefully to make 
sure it's grounded in the evidence, that it--you know, if it's 
an economically significant rule, that it has a good cost-
benefit analysis with it.
    Mr. Jordan. Is your evaluation of the proposed rule or 
maybe the final rule, is it focused on the substance of the 
rule and/or did the agency comply with notice, public comment, 
cost-benefit? Is it all of the above or just parts of that?
    Mr. Shelanski. Certainly, when it's a proposed rule that 
the agency is bringing forward for the first time before it's 
had public notice and comment, we're very focused on the 
substance.
    Mr. Jordan. Okay.
    Mr. Shelanski. And the reason we're focused on the 
substance is that rule's going to go out for public comment, 
and it's going to be a notice of proposed rulemaking.
    Mr. Jordan. So it is a two-step thing? So you are going to 
----
    Mr. Shelanski. It's a two-step thing.
    Mr. Jordan.--look at the substance first. Then, the agency 
is going to send it out for public comment and notice it and 
public comment and ----
    Mr. Shelanski. Right.
    Mr. Jordan.--you will get that feedback back? Then are you 
going to look to see if they actually complied with the process 
they are supposed to go through to make sure this rule is 
appropriate?
    Mr. Shelanski. Yes, that's exactly what we do. So we look 
at the substance again when the rule comes back because the 
agency will often make changes between the proposed version and 
the final version. But the other thing that has happened in 
that time is probable one of the hallmarks of the U.S. 
regulatory system. It's the public comment. And the important 
factor is the public comments are part of the administrative 
record. Those are documents that remain part of the record, so 
we make sure when an agency brings a final rule back to us of 
two things that tie very closely to process. One is that they 
do not ignore the substantive and important public comments 
that they've ----
    Mr. Jordan. Right.
    Mr. Shelanski.--received. And the second thing is that the 
actual rule that they put forward, the substance of that rule 
logically follows from what the public had notice might happen.
    Mr. Jordan. My understanding--is it accurate to summarize 
it is a two-step process. Step one, look at the substance. Step 
two, make sure that when it is an important rule they are going 
through the proper notification, proper public comment, proper 
notice and everything else?
    Mr. Shelanski. Both of those factor in, yes.
    Mr. Jordan. Okay. So the GAO issues a report a few years 
ago, December 2012. What GAO found, very first sentence, 
agencies do not publish a notice of proposed rulemaking 
enabling the public to comment on a proposed rule for about 35 
percent of major rules and about 44 percent of non-major rules 
published in about a 10-year time frame, 8-year time frame 
prior to that. Do you know anything about that? Because that 
would sound like it just went contrary to what you just 
described.
    Mr. Shelanski. So this relates to a particular kind of 
rule, if I'm recalling correctly, the GAO report. Agencies 
under the Administrative Procedure Act are allowed to do some 
rules directly to final, and that is permissible under some 
circumstances.
    Mr. Jordan. So directly to final. So what part of this--if 
an agency goes directly to final, what part of that two-step 
process that you just described did they do an end run around?
    Mr. Shelanski. So this is where ----
    Mr. Jordan. Both parts?
    Mr. Shelanski. No. So ----
    Mr. Jordan. Just the second part?
    Mr. Shelanski. Some--and that's--what GAO was concerned 
about is sometimes they did not do the second step. The ----
    Mr. Jordan. Okay. And do you have to sign off on that?
    Mr. Shelanski. No. What we have to sign off on ----
    Mr. Jordan. Did you make an issue of it?
    Mr. Shelanski. Yes, absolutely.
    Mr. Jordan. Well, then, why did it happen 35 percent of the 
time for major rules?
    Mr. Shelanski. Yes, so one of the things we've been trying 
to do since the time that that report was issued was to get 
agencies to commit ahead of time when they are legally able to 
do what's called an interim final rule to make sure it's truly 
interim and that they, in fact, do then put the rule out for 
public comment and finalize the rule in light of that public 
comment.
    Mr. Jordan. If GAO would do a study now, what percentage of 
major rules are not following the notice and public comment 
process?
    Mr. Shelanski. I would hope it's a greatly reduced number. 
I don't know what the number would be. I don't think it's a 
common occurrence.
    Mr. Jordan. Are you actively--are you cataloguing that? I 
mean, does OIRA know when an agency is not going to follow 
notice and public comment for--I am using GAO's descriptive 
word here--major rules? Do you know that?
    Mr. Shelanski. So the number of interim final rules that 
fall into this category I think is, to begin with, a rather 
small number. What fraction don't then go through the comment 
period I don't know. We've been working very hard to give 
agencies ----
    Mr. Jordan. Well, we would like to know that, and it seems 
like if you are the folks who oversee how the rules are done 
and making sure they are supposed to be done right, if 35 
percent of the time major rules are going through the notice 
and public comment process, we would need to know that. So if 
you could get that information and get it to us, that would be 
helpful.
    Mr. Shelanski. And just to clarify for the record, it's not 
35 percent of all major rules. It's 35 percent I think at the 
time of this particular category of regulations if I'm ----
    Mr. Jordan. That is not what the sentence says.
    Mr. Shelanski. Yes, I would have to ----
    Mr. Jordan. It says ``for about 35 percent of major rules 
and about 44 percent of non-major rules.''
    Mr. Shelanski. Well, I will certainly go back and look, and 
I think you're absolutely right; this is an area that if those 
numbers remain anything close to what they are, we need to do 
more on ----
    Mr. Jordan. Well, I'm sorry, Mr. Chairman. I said 2 minutes 
and here I am taking 6 so I appreciate the indulgence.
    For the fact that--this would seem to be something that you 
would be jumping, kicking, and screaming and, you know, making 
all kinds of noise about that 35 percent of the time they are 
not doing what they are supposed to do, and it is the very 
thing that OIRA was created to make sure they did.
    Mr. Shelanski. Right. And so my--since I have been in 
office in 2013 ----
    Mr. Jordan. And more importantly--sorry to interrupt, but 
more importantly, you can't tell me what that percentage is 
now. We know it was 35 percent for a significant time frame 
when this report came out. We don't know what that is now. We 
don't know if it is higher, lower. We don't know.
    Mr. Shelanski. I would hope that it's significantly lower. 
It's not something that's happening very often.
    Mr. Jordan. Well, we don't want to go on your hope. We want 
you to give us the information.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes himself for a series of questions.
    So let me follow up on one point, Mr. Shelanski. You just 
said that you review the public comment. You were telling Mr. 
Jordan you review the public comment?
    Mr. Shelanski. We don't read all of the public comments 
ourselves. What we do is we make sure that the agencies have --
--
    Mr. Meadows. So what percentage of the public comments do 
you review?
    Mr. Shelanski. Well, we--the agencies submit to us what's 
called a Response to Comment as part of these rules.
    Mr. Meadows. So you don't actually review public comment?
    Mr. Shelanski. We review an awful lot of them. I mean, 
sometimes there are millions of them that are ----
    Mr. Meadows. Well, the reason why I ask is because we have 
had, you know, a transcribed interview where someone under oath 
said, ``We don't get involved in the review of public 
comments.'' So how do you reconcile your testimony with sworn 
transcript?
    Mr. Shelanski. Well, it's exactly what I just said. We make 
sure that the agencies have responded to public comment. That's 
what we do. But there is a form of ----
    Mr. Meadows. But that is not what you said.
    Mr. Shelanski. Well ----
    Mr. Meadows. So what you are telling me is you don't review 
public comment, is that correct?
    Mr. Shelanski. It is not ----
    Mr. Meadows. You just make sure they review public comment?
    Mr. Shelanski. And more than just review it. They can't 
just say we've reviewed it. They have to ----
    Mr. Meadows. So how do you determine that if ----
    Mr. Shelanski. We read in the document they submit to us as 
part of a final rule package what their response to the 
comments are.
    Mr. Meadows. So they do a response to the comments. So what 
you are doing is reviewing their response to public comment --
--
    Mr. Shelanski. If they produce ----
    Mr. Meadows.--not reviewing public comment?
    Mr. Shelanski. They produce a summary of public comment and 
they show what their responses are, and we review to make sure 
that they weighed in.
    And I would add that one of the very important functions 
that we do when we're under--when we have a rule under review 
is we meet with the public. We're required to under the 
Executive order ----
    Mr. Meadows. What percentage of the public?
    Mr. Shelanski. Well, in the last 2 years, we've had 900 
meetings with stakeholders, 900.
    Mr. Meadows. And that would represent what percentage?
    Mr. Shelanski. Of the interested parties? Since we ----
    Mr. Meadows. Yes.
    Mr. Shelanski. Since we take any meeting that anybody 
requests, it's, I presume, a pretty ----
    Mr. Meadows. So you will meet with 100 percent of the 
people that ask you ----
    Mr. Shelanski. We do not turn down meeting requests. We 
have accepted ----
    Mr. Meadows. So your testimony is you meet with 100 percent 
of the people that ask? How do you do that with a staff of 45 
people?
    Mr. Shelanski. Like I say, we've had 900 meetings in the 
last 2 years.
    Mr. Meadows. Okay. The ranking member was trying to help 
you out, Mr. Shelanski, because, honestly, some of your 
testimony is incongruent and so I will put it that way because 
it seems to be conflicted. At your previous hearing we talked 
about resources. Dr. Williams has talked about, you know, it is 
just overburdened, yet you said that you are adequately 
resourced in the previous hearing. So is your perceived--and I 
will use that word gently--perceived lack of complying to the 
subpoena a resource issue?
    Mr. Shelanski. Again, I want to clarify that I fully wish 
to comply with every ----
    Mr. Meadows. But you are not.
    Mr. Shelanski. I fully ----
    Mr. Meadows. If your testimony is--because on the January 
29 meeting that he has talked about where you actually came in 
and talked about subpoena compliance with staff, actually you 
provided a few rolling document productions. But the other part 
of what you agreed to do during that meeting has not been done.
    Mr. Shelanski. Can I clarify that I was not part of that 
meeting? When you say you ----
    Mr. Meadows. Yes, you can ----
    Mr. Shelanski. I just want to clarify ----
    Mr. Meadows. You are an agency. Okay. Your name is on the 
subpoena.
    Mr. Shelanski. I understand that, which is why ----
    Mr. Meadows. And so ultimately ----
    Mr. Shelanski.--I turned ----
    Mr. Meadows.--if someone is not complying with a subpoena, 
it is not the general counsel, it is not your staff, it is you 
because your name is on the subpoena.
    Mr. Shelanski. And it ----
    Mr. Meadows. And I am trying to help you out here.
    Mr. Shelanski. I--let me just say I hope that I am fully 
complying with the subpoena. I intend to fully comply with the 
subpoena. I would never do anything but fully comply with a 
subpoena from this office. I want to make that very clear.
    Mr. Meadows. But that has not been your testimony today 
because you have referred to the general counsel. You said it 
is up to the general counsel to determine ----
    Mr. Shelanski. We don't ----
    Mr. Meadows.--and yet their name is not on the subpoena.
    Mr. Shelanski. That is--actually, what I said was my 
understanding was there was an--I want to be very clear about 
this. My understanding was there is an ongoing process to reply 
to the subpoena and to comply with the subpoena. I have turned 
over everything I have into that process. For all I know, you 
have all of it. So it's really hard for me to know what more I 
can do here.
    Mr. Meadows. All right. So your testimony is you have 
turned it all over to general counsel, every one of your 
documents, and it is your belief today that they have turned 
all of that over to this committee?
    Mr. Shelanski. It is my belief ----
    Mr. Meadows. That is your--in preparing for this hearing, 
that is what you were told?
    Mr. Shelanski. No. What I was told was there is ongoing 
discussion and turning over of document s----
    Mr. Meadows. You know, ongoing is a long word. It doesn't 
quantify when it is going to get--there are ongoing processes 
to try to balance our budget. It doesn't mean that it is 
getting done.
    Mr. Shelanski. Well, all I can say is that I have--it has 
been my wish and my request that the subpoena be fully complied 
with. I've turned over all of my documents. And I will ----
    Mr. Meadows. What about the scope and the parameters of 
what you are even looking to provide to this committee? We have 
asked you for that, and yet you haven't provided that scope and 
what we are looking at. We have asked for custodians. We have 
gotten very little information. Those would seem to be the easy 
answers that the ranking member and I could get within 24 hours 
of you going back and saying we need to let the committee know 
the scope of what we are looking at and the custodians who are 
charged with it and who all is involved. And we have been 
getting information that you haven't even reached out to them.
    Mr. Shelanski. It is my understanding that every effort has 
been made to obtain the information you have requested. I 
certainly have turned over everything I have and that it is in 
my power to turn over----
    Mr. Meadows. Okay.
    Mr. Shelanski.--to turn over.
    Mr. Meadows. All right. Let me put it this way. You are in 
charge. It is the opinion of some that you are not being 
compliant with providing information to this committee. I will 
be tenacious until we actually get your compliance. And I want 
to make sure I am clear here because some of my questions from 
a year ago and the responses you gave me are not--I guess I 
didn't articulate them properly because the answers you gave me 
are not bared out with fact. Does that make sense?
    Mr. Shelanski. Since I don't know what you're referring to 
----
    Mr. Meadows. Well ----
    Mr. Shelanski.--I can't comment ----
    Mr. Meadows.--so let me share with you just one exchange, 
and this is one of three that we have but I will share with 
you. When we were talking about the informal review process and 
the fact that there may be some dialogue that goes on between 
you and an agency, now, that particular one we were talking 
about, WOTUS, but today, I am talking about any of them, not 
just the WOTUS ruling.
    And I said, ``Basically we have had a number of hearings 
here in this committee on the Waters of the USA on the proposed 
rule, and I believe that your testimony here today is that it 
has not been officially submitted to you, is that correct?'' 
And you said, ``Yes, that is correct.'' ``And so you have had 
no dialogue with them?'' is what I asked. And you said, ``I 
have had no dialogue with the EPA.'' And I went on further. I 
said, ``Informal or formal?'' ``I have had no dialogue 
whatsoever with the EPA on the Waters of the USA.'' ``Okay. How 
about deliberations?'' I ask. And you said, ``Well, no 
deliberations, no discussions.''
    And so in follow up to Mr. Carter's response today, I ask, 
``So if I were to ask you for all of your records,''--and so I 
assume that you turned over all of your records to general 
counsel. ``So if I were to ask you for all of your records, 
would we find zero records, zero emails, nothing with the EPA 
with regards to the rulemaking on the proposed rule?'' Your 
response was ``We concluded review on the proposed rule, the 
EPA took it from there. The next I will hear about is when they 
submit the final rule.''
    Now, you actually changed that to say that you actually 
hadn't had the formal rule at that particular time because you 
came back and corrected that. But here is my concern, the 
committee has emails where actually the administrator has had 
direct communication with OIRA and there were lines that were 
marked out and edited for the proposed rule. So that is my 
concern. You are saying there is nothing, and yet we have 
evidence that there was something.
    Mr. Shelanski. I think it's important to draw a very clear 
distinction here. Of course I had discussions and interaction 
with ----
    Mr. Meadows. But that was not your testimony.
    Mr. Shelanski. Sir--sir ----
    Mr. Meadows. I mean, I couldn't have been much clearer. I 
said, ``Informal or formal?''
    Mr. Shelanski. I need to finish my answer because ----
    Mr. Meadows. Sure. Go ahead.
    Mr. Shelanski.--this is vitally important.
    Mr. Meadows. It is.
    Mr. Shelanski. When we had the proposed rule under review, 
when we had the proposed rule under review formally submitted, 
I of course had correspondence with the EPA and interactions, 
and I would expect that you have those documents. When the 
agency had the proposed rule back in its hands and we had 
concluded review on the proposed rule, I don't think I had any 
correspondence or interaction or discussion with the EPA ----
    Mr. Meadows. So you are doubling down that you never have 
discussion with an agency informally before it goes into the 
formal process?
    Mr. Shelanski. Are we talking about WOTUS or are we talking 
about ----
    Mr. Meadows. You know, it is your agency. Let me just tell 
you, I am trying to make it clear. Ms. Sager, do they--your GAO 
report seemed to indicate that there is this informal review 
process that sometimes goes back and forth with an agency. Can 
you illuminate that any?
    Ms. Sager. There are conversations between OIRA and the 
agencies about the nature of proposed rules, yes.
    Mr. Meadows. So how do you reconcile what the GAO is 
telling me with your testimony here, Mr. Shelanski?
    Mr. Shelanski. Well, Mr. Meadows, you've moved back and 
forth between the specific case of ----
    Mr. Meadows. No, sir, I think I have been ----
    Mr. Shelanski. You have.
    Mr. Meadows. Well, let me just tell you. It is not my 
agency, so please enlighten me because let me tell you, what it 
smells like here is that you are not being truthful with this 
committee.
    Mr. Shelanski. So let me separate two things and be very 
plain about it. My answer on WOTUS was correct. I had no 
interaction with WOTUS during--between the proposed and final 
rule with EPA on the clean water rule. Are there occasions, as 
Ms. Sager said, when agencies come and brief us on rules that 
they have not yet formally submitted? Yes, there are. And I've 
said that before in testimony.
    Mr. Meadows. But in my direct questioning I was trying to 
get to that very exact point and you gave an answer that was 
not ----
    Mr. Shelanski. But I realize that now. Last time we had the 
occasion to speak about the issue, Mr. Meadows, I was not clear 
on whether you were asking about proposed rules or talking 
about separately as informal rules because we don't have a 
category that we keep of informal review, okay? What we do is 
sometimes an agency will say we're developing a rule or we have 
a rule we're going to submit in 2 months; we'd like to come in 
and brief you about it. We do have those discussions, as Ms. 
Sager said, but we don't have the rule at that point. We're not 
actually reading the rule, and we're not involved in helping 
them develop the rule. We're getting briefed on the scope of 
the rule.
    Mr. Meadows. All right. Let me interrupt you. If you are 
having discussions with them, how could that not be helping 
them develop the rule? Why are you having the discussion? Is it 
what did you have for breakfast?
    Mr. Shelanski. No, it's more ----
    Mr. Meadows. If you are not helping them--how do you have a 
discussion if you are not helping them develop the rule?
    Mr. Shelanski. So they're going to want to know what we 
will expect from them when the review process starts.
    Mr. Meadows. That is helping them develop the rule.
    Mr. Shelanski. Okay. I mean, we're not setting--we're not 
making policy decisions for them. They'll come to us and say we 
have a rule on a particular topic. Here's what--here's the 
direction the rule is going often with not terribly much 
specificity, and we'll tell them, okay, we're going to need 
certain kinds of analysis, we're going to need certain things 
to be an element of the rule package. But it would not be the 
proper role of OIRA, for example, to tell, you know, HUD what 
their policy decisions should be in a particular rule.
    Mr. Meadows. That is not what I was asking. The problem is 
your testimony today is in direct conflict with the testimony 
you gave just about a year ago because this was the exact line 
of questioning that I was trying to get to. And either it was 
my inability to articulate it properly or your inability to 
comprehend it properly, but somehow, we miscommunicated. And 
what I am concerned about is it took other witnesses here for 
you to finally agree to what we already knew.
    Mr. Shelanski. Well, Mr. Meadows, I was not certain 5 
minutes ago whether you were talking about a particular rule or 
----
    Mr. Meadows. Okay.
    Mr. Shelanski.--generally, and I believe I've made ----
    Mr. Meadows. Well, they have called votes, and so, Dr. 
Williams, Mr. Batkins, you both gave some very good--as my good 
friend Mr. Connolly has indicated, some good analysis. What we 
would love to do is follow up. So we don't keep you here any 
longer, we will submit some questions for that.
    I recognize the ranking member for a closing statement.
    Mr. Connolly. I thank the chair.
    I guess I would just say, you know, Harry Truman used to 
have a sign on his desk ``The buck stops here.'' It was an 
acknowledgement that there had to be some ultimate authority 
where decisions got made and responsibility taken. You know, I 
don't know Mr. Shelanski's commitment to his mission, and he 
has a long and distinguished career, but what is untenable is 
to assert that even though I am the head of an agency, I have 
outsourced responsibility for compliance with a subpoena and 
the overall relationship with a committee to somebody else, and 
my only job is to hand over the raw documents and I am done. I 
don't take responsibility for dates, for meetings, for what 
information if any is provided, and whether or not we are, in 
fact, in compliance with a subpoena. That is not a tenable 
position, and I can assure you on a bipartisan basis that is 
going to be the point of view on this committee.
    And so I urge Mr. Shelanski to think about that because I 
think we could avoid some problems by the taking of 
responsibility and by more awareness by Mr. Shelanski of in 
fact what meetings take place, who is at them, and what got 
agreed to even if he isn't in that meeting. And I just 
respectfully submit that to the gentlemen in question because I 
think you are going to have real problems on this committee. 
And we already have a philosophical divide about the value and 
role of regulation, but to be eclipsed in that philosophical 
debate by an administrative hurdle that is not defensible makes 
no sense to me. But that is just me.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman for his eloquent 
remarks.
    Mr. Shelanski, maybe what we can do is from this point 
forward believe that you are going to comply with the subpoena 
and all the documents and that we set the scope of when that 
would be along with timetables and how we are going to do that. 
That is what we will look for.
    Additionally, what I would ask with regards to the GAO 
recommendations which GAO recommendations that you plan not to 
implement, the ones that you do plan to implement and at what 
timetable are we going to look at that. I am going to check. I 
will follow up. I promise you I will follow up on that.
    And then, Mr. Batkins and Dr. Williams, my apologies for 
not getting any further questions with you, but we will submit 
some for the record and ask you to respond back to this 
committee. And we appreciate your interest in this very 
valuable topic.
    And if there is no further business before the committee, 
the committee stands adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
